                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A09080069                                                                       Page I of I



         This case was opened after our office received four allegations about an award's PI. 1 Two of the
         allegations were programmatic in nature and beyond the jurisdiction of our office. After
         reviewing documentation supplied by the institution, we determined that the institution did not
         properly account for all costs associated with the award,and the PI did not obtain receipts for
         many costs charged to the award. Based on our review of additional documents, it appears the
         PI's field research ~xpenses were legitimate.

         In addition, the PI did not have the proper permits in place prior to conducting his research in
         another country. However, a representative from the u.s. Fish and Wildlife Service stated it
         would not take action on that the permit issue.

          In closing this case, we reminded the PI and the institution of their responsibilities regarding
          retaining adequate documentation for all expenses for federal research grants. Accordingly, this
         'case is closed.




NSF OIG Fonn 2 (11102)
